                                                        U.S. Department of Justice

                                                        United States Attorney

                                                        Eastern District of Pennsylvania
                                                        615 Chestnut Street

                                                        Suite 1250
                                                        Philadelphia, Pennsylvania 19106-4476
                                                        (215) 861-8200

For Immediate Release                                   May 6, 2010

            CHARGES ANNOUNCED IN CASH SCHEME FOR DRIVER’S LICENSES

        PHILADELPHIA - Charges were filed today against three individuals in a scheme to make cash
payments to state driver’s license examiners in exchange for the issuance of driver’s licenses, announced
United States Attorney Michael L. Levy. Joining Levy in the announcement were United States
Immigration and Customs Enforcement (“ICE”) Special Agent-in-Charge John P. Kelleghan, Internal
Revenue Service Criminal Investigation Acting Special Agent-in-Charge Troy N. Steman, and United
States Department of Transportation Office of Inspector General Special Agent-in-Charge Ned
Schwartz.

        Saman H. Salem, Harold Palmer, and Pierre E. Jean-Louis are charged in two informations and
an indictment1 with extortion and manufacturing identity documents without lawful authority. Salem is
also charged with tax evasion, obstruction of justice, and illegally structuring cash transactions to avoid
notice to federal regulators. Palmer is also charged with making false statements to federal agents.

         According to the charging documents, Salem and Jean-Louis made cash payments to driver’s
license examiners and posed as interpreters who assisted applicants in cheating on driver’s license
examinations. Palmer, a Pennsylvania Department of Transportation (“PennDOT”) driver’s license
examiner, took cash payments to issue driver’s licenses. The charges are part of a two-year investigation
led by the United States Attorney’s Office and ICE into several illegal businesses that assisted illegal
aliens, foreign nationals, and others in obtaining driver’s licenses, through fraudulent means, at various
PennDOT driver’s license centers in Philadelphia.

        “These defendants are charged with systematically corrupting the process of obtaining driving
licenses and putting hundreds of identification documents into the hands of people not eligible to receive
them,” Levy said. “Fraudulently obtained identification documents do more than put unfit drivers on the
road and endanger other drivers and pedestrians, they enable other crimes and prevent law enforcement’s
detection of those crimes.”

       “Public corruption by state employees selling authentic drivers’ licenses to criminals significantly
impacts the community’s safety and security,” Kelleghan said. “This case demonstrates both the
seriousness of the threat and the effectiveness of ICE’s Document and Benefit Fraud Task Force.”


        To date, the investigation has resulted in:




        1
        An indictment or information is an accusation. A defendant is presumed innocent unless and until
proven guilty.
        ! The charging of a total of 20 individuals in various schemes to obtain driver’s licenses and
other identification documents for ineligible individuals, including illegal aliens, foreign nationals, and
others.


        ! The charging of 10 individuals for operating a 17-year conspiracy to obtain driver’s licenses
and other fraudulent identification documents for illegal aliens and foreign nationals. This organization,
headed by defendant Kakhyun H. Lee and headquartered in Northern New Jersey, obtained hundreds of
false identities. Lee, a trained artist and Korean national, obtained Korean passports, forged United
States visas into these passports, and transported hundreds of individuals to Tennessee, Georgia, New
York, New Jersey, and Pennsylvania to obtain fraudulent identification documents. These documents
included driver’s licenses and identification cards that included the picture of Lee’s customer and the
identifying information of another person Lee supplied. Lee charged his customers up to $4,000 for
fraudulent identity documents. Lee has pleaded guilty and is scheduled for sentencing on June 1, 2010.


       ! The charging of driving school operators Michel Lominy, Salem, and Alphonso Wilson who
made cash payments to driver’s license examiners to issue licenses to individuals who took perfunctory
driving tests, or no test at all, and who assisted applicants in cheating on driving tests.


       ! The charging of Alexander Steele, Palmer, and Anita Levier, all PennDOT driver’s license
examiners who allegedly took thousands of dollars in cash payments to issue driver’s licenses to
individuals without regard for their eligibility to receive licenses.


      ! The seizure of more than $300,000 in cash from Salem, which was part of the proceeds of the
scheme and the uncovering of a more than five-year tax fraud scheme engineered by Salem.

        “The indictments announced today identify individuals who corrupted governmental processes
for their own financial gain, while disregarding the safety of their fellow Americans,” IRS’s Steman
said. “We will continue to apply the financial investigative expertise of IRS Criminal Investigation
Special Agents to bring such individuals to justice, in conjunction with our partners at the United States
Attorney’s office and other law enforcement agencies.”

        “Working with our law enforcement and prosecutorial colleagues, the Department of
Transportation, Office of Inspector General is committed to investigating and seeking prosecution of
those who choose to participate in the distribution of fraudulent driver’s licenses,” DOT-OIG’s Schwartz
said. “In addition to a potential for identity theft and other criminal activity, people who fraudulently
obtain a driver’s license, commercial or otherwise, could pose a serious safety risk to the traveling
public.”

       If convicted, Salem faces a maximum sentence of 53 years in prison. Palmer faces a maximum
sentence of 40 years imprisonment and Jean-Louis faces a maximum sentence of 35 years imprisonment.

       The case was investigated by United States Immigration and Customs Enforcement, the Internal
Revenue Service Criminal Investigation Division, the United States Department of Transportation –
Office of Inspector General, the Federal Bureau of Investigation, and the Pennsylvania State Police. It is
being prosecuted by Assistant United States Attorneys Richard J. Zack and David J. Ignall.
                        INFORMATION REGARDING THE DEFENDANTS
           NAME                            ADDRESS                   YEAR OF BIRTH
       Saman H. Salem                   Philadelphia, PA                      1977
       Kakhyun H. Lee                    Ridgefield, NJ                       1963
       Alexander Steele                 Philadelphia, PA                      1963
        Harold Palmer                   Philadelphia, PA                      1966
         Anita Levier                   Philadelphia, PA                      1956
       Michel Lominy                      Irvington, NJ                       1969
     Pierre E. Jean-Louis               Collingdale, PA                       1958
          Mal S. Lee                    North Wales, PA                       1955
       Alphonso Wilson                  Philadelphia, PA                      1962
          Justin Kim                   Palisades Park, NJ                     1973
          Ryan Koo                     Closter, New Jersey                    1970
         Min S. Kim                      Federal custody                      1953
 Marcelino Rodroguez-Garcia              New York, NY                         1965
     Carlos Tejeda-Mejia         In custody/Citizen of Dominican              1979
                                            Republic
   Raul Villaneuva Figueora      Citizen of Dominican Republic                1965
       Victor Rodriguez          Citizen of Dominican Republic                1968
Yerris R. Ramirez Nunez          Citizen of Dominican Republic                1977
       Jovany Ramirez                     Queens, NY                          1980
     Christopher J. Hahn                 Edgewater, NJ                        1962
    Hyung J. Chang                       Ridgefield, NJ                       1975




                 NAME                        STATUS/MAXIMUM PENALTY
             Saman H. Salem                      Charged/53 years in prison
             Kakhyun H. Lee                Awaiting sentencing/163 years in prison
             Alexander Steele                 Awaiting trial/85 years in prison
              Harold Palmer                      Charged/40 years in prison
               Anita Levier                    Sentenced/three years probation
           Michel Lominy            Awaiting sentencing/193 years in prison
         Pierre E. Jean-Louis             Charged/35 years in prison
              Mal S. Lee               Awaiting trial/34 years in prison
           Alphonso Wilson          Awaiting sentencing/85 years in prison
              Justin Kim               Awaiting trial/85 years in prison
              Ryan Koo                 Awaiting trial/119 years in prison
             Min S. Kim                 Sentenced/13 months in prison
      Marcelino Rodriguez-Garcia        Sentenced/25 months in prison
         Carlos Tejeda-Mejia            Sentenced/27 months in prison
       Raul Villanueva Figueroa                   Sentenced
           Victor Rodriguez             Sentenced/12 months in prison
    Yerris Radhames Ramirez Nunez       Sentenced/41 months in prison
           Jovany Ramirez           Awaiting sentencing/15 years in prison
         Christopher J. Hahn           Awaiting trial/17 years in prison
        Hyung J. Chang              Awaiting sentencing/10 years in prison




UNITED STATES ATTORNEY'S OFFICE        Contact:
EASTERN DISTRICT, PENNSYLVANIA         PATTY HARTMAN
Suite 1250, 615 Chestnut Street        Media Contact
Philadelphia, PA 19106                 215-861-8525


      COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT:
                             www.justice.gov/usao/pae
